IN THE SUPREME COURT OF THE UNITED STATES

RODRIGUEZ-RIVERA, RAYMOND
Petitioner
vs.

No:

21-0143

USA
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

BRIAN H. FLETCHER
Acting Solicitor General
Counsel of Record
August 16, 2021
cc:

See Attached List

FRANCO L. PÉREZ-REDONDO
SUPERVISOR, APPEALS
241 F.D. ROOSEVELT AVE.
SAN JUAN, PR 00918
NEAL KUMAR KATYAL
HOGAN LOVELLS US LLP
555 THIRTEENTH STREET, N.W.
WASHINGTON, DC 20004
PETER G. ELLIS
FOLEY HOAG LLP
SEAPORT WEST
155 SEAPORT BOULEVARD
BOSTON, MA 02210-2600
LINDA BACKIEL
PMB 597
267 CALLE SIERRA MORENA
SAN JUAN, PR 00926

